                                  EVALUATION




 U.S. DEPARTMENT OF THE INTERIOR’S
 VIDEO TELECONFERENCING USAGE




Report No.: WR-EV-MOA-0004-2010   December 2011
              OFFICE OF
              INSPECTOR GENERAL 

              U.S.DEPARTMENT OF THE INTERIOR



Memorandum

To:            Rhea Suh
               Assistant Secretary for Policy, Management and Budget

From:          Mary L. Kendall
               Acting Inspector Gene

Subject:       Final Evaluation Report- U.S. Department of the Interior's Video
               Teleconferencing Usage
               Report No. WR-EV-MOA-0004-2010

        This memorandum transmits the results of our evaluation of the U.S. Department of the
Interior's (Department) use of video teleconferencing (VTC). We catalogued all of the
Department's VTC sites and equipment and identified opportunities for the Department to
achieve significant savings on travel costs through the increased use of VTC, while also
advancing its sustainability goal of helping to reduce greenhouse gas emissions. We include five
recommendations in our report that, if implemented, would serve to help maximize the use of
VTC and save the Department millions of dollars annually.

         Based on the Department's September 30, 2011 response to the draft report, we consider
all five recommendations to be resolved but not implemented. We will refer these
recommendations to your office, the Office of Policy, Management and Budget (PMB), to track
implementation.

        The legislation, as amended, creating the Office of Inspector General requires that we
report to Congress semiannually on all audit report issues, actions taken to implement our
recommendations, and recommendations that have not been implemented.

        A response to this report is not required. We request, however, that the Department
provide PMB with additional information regarding its specific plans to implement
Recommendation 5. If you have any questions regarding this memorandum or the subject report,
please do not hesitate to contact me at 202-208-5745.




                               Office of Inspector General   I Washington,   DC
Table of Contents

Results in Brief ....................................................................................................... 1


Introduction............................................................................................................. 2

   Objective ............................................................................................................. 2

   Background ......................................................................................................... 2


Figure 1. Bureau of Land Management’s video teleconferencing site at the Main

Interior Building in Washington, DC. OIG photo. ................................................. 3


Findings................................................................................................................... 4

   Where are the Department’s VTC Sites, or Endpoints, Located?....................... 4

   What Strategy Can the Department Employ When Determining Potential 

   Locations for VTC Endpoints? ........................................................................... 4

   What are the Hurdles in Realizing the Full Potential of VTC Technology?....... 7

      No VTC-Use Policy......................................................................................... 7

      Equipment Compatibility and Video Bridging................................................ 7

      Past Experience................................................................................................ 9

      Availability of VTC Resources Not Known.................................................. 10

      Employee Motivation .................................................................................... 11

   What are the Potential Benefits Associated with Increased VTC Use? ............ 11

      Potential Travel Savings ................................................................................ 11

      Potential Greenhouse Gas Reduction ............................................................ 11


Conclusion and Recommendations....................................................................... 13

   Conclusion......................................................................................................... 13

   Recommendations ............................................................................................. 13


Appendix 1: Scope and Methodology................................................................... 17


Appendix 2: Number of VTC Endpoints by Bureau/Office and State ................. 19


Appendix 3: Department VTC Networks and Video Bridges .............................. 21


Appendix 4: Top 25 City Pairs Ranked by Total Cost ......................................... 22

Appendix 5: Fiscal Year 2009 Travel Expenditures and Potential Travel

Savings.................................................................................................................. 24


Appendix 6: Top 25 City Pairs Mileage Totals .................................................... 25


Appendix 7: Classification of Monetary Amounts ............................................... 26


Appendix 8: VTC Directory by Bureau/Office .................................................... 27


Appendix 9: Department Response ...................................................................... 56


Appendix 10: Status of Recommendations........................................................... 62

Results in Brief
The Department of the Interior (Department) has the opportunity to save millions
of dollars in annual travel expenses while also making progress toward its
environmental sustainability goal of reducing greenhouse gas emissions by
increasing the use of its video teleconferencing (VTC) equipment.

The Department has 315 VTC endpoints located throughout the nation, but for a
variety of reasons the equipment is not being used to its full potential. The
Department has no policies on the use of VTC as a viable alternative to travel or
that require compatibility of equipment among the VTC endpoints. In addition,
employees have cited negative experiences using older VTC equipment, an
absence of knowledge within the Department on the availability of VTC, and low
motivation for using VTC as reasons the equipment is not being used to its full
potential.

In this report, we offer recommendations to help the Department increase the use
of VTC equipment and achieve efficiencies through the strategic placement of
VTC equipment. The Department’s increased use of VTC could potentially
translate to significant savings in travel costs and would advance the
Department’s goal of reducing greenhouse gas emissions.




This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                           1
Introduction
Objective
Our objective was to catalog all U.S. Department of the Interior (Department)
video teleconferencing (VTC) sites and equipment and determine the potential
cost efficiencies video conferencing might provide. (See Appendix 1 for Scope
and Methodology.) This evaluation report highlights information on making better
use of the Department’s VTC equipment by answering the following four
questions:
    1.	 Where are the Department’s VTC sites, or endpoints, located?
    2.	 What strategy can the Department employ when determining potential
        locations for VTC endpoints?
    3.	 What are the hurdles in realizing the full potential of VTC technology?
    4.	 What are the potential benefits associated with increased VTC use?

Background
A VTC is a face-to-face communication between two or more groups of people at
different locations using video cameras, monitors, and a network, such as the
Internet. This type of conferencing can reduce travel when used for meetings,
training sessions, or interviews. Further, VTC has the potential to increase
participation of key staff and expedite decision making processes by allowing
employees in various locations to gather quickly for face-to-face communication
without the cost and time associated with travel.

In the face of the economic downturn, private sector companies today are using
VTC technology to help cut travel costs associated with training or meetings. The
less obvious benefit from using VTC is the decrease in downtime related to
employees waiting in airports and flying on airplanes. In addition, video
conferencing promotes business continuity. For example, VTC can be used in
circumstances when air travel is discouraged or interrupted. Recent examples
include the 2009 H1N1 pandemic, and the 2010 and 2011 volcanic ash cloud
incidents in Iceland. Other benefits from VTC include improving employee
morale for those who travel often to meet with geographically distant colleagues.
VTC can also help support green initiatives and advance efforts to reduce
greenhouse gas emissions.




This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                           2
Figure 1. Bureau of Land Management’s video teleconferencing site at the Main Interior
Building in Washington, DC OIG photo.




This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                           3
Findings
Where are the Department’s VTC Sites, or
Endpoints, Located?
Department offices and bureaus have a combined total of 315 video conferencing
endpoints1 located throughout the nation (see Appendices 2 and 8). The cost to
purchase this VTC technology was an estimated $5 million.2 Several cities
throughout the country have a number of Department-owned VTC endpoints
available for use, as shown in Figure 2.

                          Cities with the Most VTC Endpoints

                     Location                                   Number of VTC Endpoints
    Denver & Lakewood, CO                                                        30
    Anchorage, AK                                                                26
    Washington, DC                                                               21

Figure 2. Table displays cities with the highest number of VTC endpoints and how many
endpoints in that city.

The number of VTC endpoints varies by bureau and office; the National Park
Service has the most with 103 endpoints and the Office of Surface Mining has the
least, with no endpoint as of April 2010 (see Appendix 2).

What Strategy Can the Department Employ When
Determining Potential Locations for VTC Endpoints?
Greater use of VTC could result if the Department’s most frequent flight
departure and destination cities were considered when determining locations for
VTC endpoints. For example, of the $42.4 million the Department spent on travel
in Fiscal Year (FY) 2009 involving up to 2 nights of overnight lodging, $15.4
million went for 31,222 ticketed flights and $27.0 million for non-airfare travel
costs. We grouped the 31,222 flights by city pairs—origin and final destination
points of a travel itinerary—and segregated the top 25 most-flown city pairs,
ranking them by total cost (see Appendix 4).
1
  A VTC endpoint is the human interface to the overall VTC system. It is the device or application at the end

of the wire where the electronic conference and human interaction occurs. A VTC endpoint is also known as

a video teleconferencing unit or VTU and VTC/video end instrument or EI.

2
  The total estimated $5 million purchase cost and 315 VTC endpoints were obtained as a result of a data call

to the various Department offices and bureaus. Data provided by Department bureau or office as of April 19,

2010.


This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                            4
The Department could reduce travel expenditures by adding or moving VTC
equipment to office locations that are common departure and destination points
for meetings or training.3 For example, the city pair of Reno, NV, and Las Vegas,
NV, is costly and frequently flown. Since both cities have only one VTC
endpoint, increasing the number of VTC endpoints in these cities would enhance
video conferencing opportunities for employees flying to and from the Reno and
Las Vegas area.

Five other cities that have only one VTC endpoint and could be considered for
additional equipment are: Bismarck, ND; Boston, MA; Juneau, AK; Minneapolis,
MN; and San Diego, CA. These cities are departure or destination points listed
among the top 25 most costly flights. We also noted that two cities—Barrow, AK,
and New Orleans, LA—were ranked among the top 25 most expensive flights but
did not have VTC endpoints. Moving VTC units to these locations or to an
appropriate Department office in close proximity to these locations, such as a
nearby park unit or field office has the potential for cost savings.

Figure 3 depicts the general location of the Department’s 315 video conferencing
endpoints, the top 25 city pairs, as well as the travel expenditures and number of
trips flown for the top 5 city pairs in FY 2009. The total number of flights in FY
2009 among the 25 pairs was 8,204. The total travel expenditures for these flights
was approximately $6.9 million.




3
 According to a VTC technology retailer, a basic VTC system is about $6,000. Quality, components, and
system capability requirements can vary resulting in higher pricing. Most VTC systems currently owned
within the Department were purchased in the range of $14,000 to $37,000. Some systems were purchased for
as much as $60,000 to $115,000.

This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                           5
                                          '-J.;-<¥-._-·_ ?_?I VTC Endpoints and Top 25 Frequent Flights in Fiscal Year 2009                                                                                                                                                                                                                                  ,

                                      />,
                                      ;.-,
                                          t~   d•
                                               "Z'~ ""'
                                                                  •                  •
                                                                                                            ··-··-   •. - - . .
                                                                                                                                  -   ·· -   ..
                                                                                                                                                  - ··- .. - .. - ........ _ .. _ _.£\~~~~
                                                                                                                                                                                                        ;;"'l
                                                                                                                                                                                                       ·r_,.
                                                                                                                                                                                                                                        •}          \                   c                                                                          I,
                                                                                                                                                                                                                                                                                                                                                 /v :. . A
                                                                                                                                                                                                                                                                                                                                                             1 ."\,; _. ......\

                                                                                                                                                                                                                                                                                                                                                                                          ~ 

                                                Portland
                                  •••                                                                                                                                                                               ~.. ~..- ::,1 '·.,                                                A NA DA
                                  '
                                                                                                                                                           ·                                                                                            -                                                                                        p             }                            ."S'
                             '
                                                                                                                                                               Bismarck                                                                        I    .. ,                                                                                                 r.f'                                ..~·'
                    _;...•            •                                                                                                                   •    •                                                                            ~~ - • - · ·~                  -""­                                                              - ·· ­                                  .J'ii,~'
                  ...            •                                                                                                                              •
                                                                                                                                                                                                                        •                          ~        u     ~·. ~               ' '\.                                     /           ..                                    )I'
                             •
                                  • •
                                                                               •
                                                                                    •                                                                          •
                                                                                                                                                                               •                                                                   .. r·               .._::".,•          ~                            . . ~";.J:-..                                        ;J
                                                                                                                                                                                       Minneapolis ••                                                                  J                                                            I                                       "\,
                                                  •                            Boise
                                                                                                                                                                       •
                                                                                                                                                                                                                •                                   ~                  ~\             \                    ... -         " •                             •                   ~ ?,o~ton
                                                                                                                                                                                                                                                                                                                                                                            .~Jt;
                                                                                                                                                                   •                   •                                                                                       J          /
                                                                                                                                                                                                                                                                                                  -­ / \
                                                                                                                                                                                                                                                                                                  ••
                                                                                                                                                                                                                                                                                                                                                             \. ....
                                                                                                                                                                                                                                                                                                                                                             Aif
                                                                                                                                                                                                                                                                                                                                                                       .,   .  ..
                                                                                                                                                                                                                                                                                                                                                                                              -
                                                                                                           ·~,
                                                                                                             '{
                                                                                                                                                                                                                                                                            t .. / ,·.. '
                                                                                                                                                                                                                                                                               .:..   J       /    ,

                                                                                                                                                                                                                                                                                                                                             .       r --:;,'Y
                                                                                                                                                                                                                                                                                                                                                     ~



             Sacramento
            ·' 1.''­
              .
              ~
                  . ...          .                • Reno                           Salt Lake Ci~-~
                                                                                         •                                                                                 •

                                                                                                                                                                                   -
                                                                                                                                                                                               •
                                                                                                                                                                                                                                                                                                                   •


               •                                                                                                                                                           I,028Trips Totaling $1 ,230,000
                                                                                    •          •                                                                                                   •                •
     -                                                         Las Vegas • ••

                                                                                                                                                                                                                                                              •
                                                          •
                                                                  '
                                                                                                                              •
                                                                                                                             Albuquerque
                                                                                                                                                                                   •                                                    I                                                                                                                                          -...
                                 San Diegol_ .. _                                             •Phoenix                                                                                                                       .                                             •                                                                                                                           --

                                                                      .c..·.                                                                                                                                                     #

                                                                                                                                                                                                                                                                            • At lanta
                                                          l\          "        '     ..   ,    '.                                                                                          •                                 ~          .                          •
                                                                                                                                                                                                                                                                                                                                        Number ofVTC Endpoints Per
                                                                                                                                                                                                                                                                                                                                                                 State

                                                                                                    ' ·- ··­ ..r ·· ­ ·\,                                                                                                    i                                                                                                          I         Rang~                                   Color        j
                                                                                                                                                                                                                            ••                                                                                                          I            0                       Gray             0        I
                        Honolulu                                                                                                                                               •                                                                                                                       •                                I          I • 16                    Orang~           0        I
                                                                                                                                                                                                                                                                                                                                        I         17 .32                     Pmk              0        I
                                                                                                                                                                                                                                                                                                                                        I        33 · 18                     Gr~n             0
0    100 mi                  ~t       I
                                                                                                                                                                                                                                                                                                                                        I        19 . 61                     Purple           0
1---r--J                                                                                                                                                                                                                                                                                                                                I                    Map Key                                   I
0 100 lan




                                                                                                                                                                                                                                 0           100        200       300 mi
                                                                                                                                                                                                                                     ---r-...&.',..---r-rl..______,,
                                                                                                                                                                                                                                                                                                                                                 VTCSite
                                                                                                                                                                                                                                                                                                                                            Non-VTC Site Black
                                                                                                                                                                                                                                                                                                                                        Top 25 City Pairs Orange
                                                                                                                                                                                                                                                                                                                                                                             Red
                                                                                                                                                                                                                                                                                                                                                                                              ••
                                                                                                                                                                                                                                                                                                                                                                                              <::>___.
                                                                                                                                                                                                                                                                                                                                                                                                       I

                                                                                                                                                                                                                             o                      1d0 1an
                                                                                                                                                                                                                                 1--l




                                                                                                                                                                                                                                        1/lO zAn
       \
                                                                                                                                                                           I

                                                                                                !
                                                                                                0
                                                                                                       I
                                                                                                           200mi

                                                                                                      200 km
                                                                                                             I
                                                                                                                                              820 Trips Totaling $557,000 \
                                                                                                                                                                           I
                                                                                                                                                                                                                                                                                                                                                                                                   6
What are the Hurdles in Realizing the Full Potential
of VTC Technology?
No VTC-Use Policy
The Department does not have written policy on the use of VTC as a viable
option over travel. The development and implementation of such a policy,
combined with heightened awareness of VTC’s benefits, would create the
opportunity for this communication technology to achieve its greater potential. In
addition, use by and support from the Department’s senior leadership of VTC
technology would emphasize the cost savings and the environmental benefits.




Figure 4. National Business Center’s video teleconferencing site at the Main Interior Building
in Washington, DC. OIG photo.

Equipment Compatibility and Video Bridging
The complete benefits of VTC can be realized when Department bureaus and
offices are able to connect with one another’s equipment. Department and bureau
officials told us that no written policy requires that VTC equipment be both
compatible and interconnected throughout the Department. Without a
comprehensive policy and strategic plan, the Department will have difficulty
meeting increasing demands for information and connectivity. The Department

This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                           7
offices and bureaus are already considered a part of the “DOI team,” so increased
interconnectivity would serve to support the team concept and spur much-needed
bureau coordination and equipment compatibility, boost employee engagement
with VTC, and improve overall internal communications.4

Video conferencing connectivity within the Department is provided through two
underlying networks: Internet Protocol (IP)5 and Integrated Services Digital
Network (ISDN).6 According to some Department officials, the advantage of the
IP network is that it tends to be less expensive to operate and affords better
picture quality, but the video connection is generally less reliable than ISDN. The
type of network used varies among the Department offices and bureaus. Because
IP and ISDN networks are not compatible, interconnectivity between offices and
bureaus throughout the Department is not possible without some type of video
bridging7 technology. During our review, we noted that video bridging
technology, which can be costly, is not employed at many offices and bureaus. In
bureaus where only IP or ISDN are available, but not both, video bridging
capability is unnecessary to meet intra-bureau communication needs. The Bureau
of Reclamation (USBR), the National Park Service (NPS), and U.S. Geological
Survey (USGS), however, operate their VTC equipment on both IP and ISDN and
have purchased video bridging technology to connect to the networks.

For all Department offices and bureaus to be immediately interconnected through
their VTC technology, video bridging technology is required. A video bridge
allows certain firewalls8 in an IP environment to be opened for connection to
other secure IP networks and ISDN lines. Video bridging technology also allows
IP networks to communicate with contacts outside of the network. We were
informed by the Department’s Office of Chief Information Officer9 that video

4
  On March 31, 2010, the new Department Intranet Web site was introduced. The name of the Web site,
oneINTERIOR, is touted to reflect that all U.S. Department of the Interior employees are “part of the DOI
[Department] team.” The Web site’s primary goal is “to promote awareness and interactions that will increase
employee engagement, improve internal communications…”
5
  IP is a high quality broadband connection, which is a standard Internet line, with average bandwidth. If the
connection is good, the line can be used for video conferencing. As such, the quality of the connection will
vary.
6
  ISDN is a digital telephone line that is used for high bandwidth use, such as video conferencing. The usage
cost for ISDN is generally higher than for IP because the local telephone company will bill per minute service
charge for ISDN, but the quality of the connection is generally more stable.
7
  Video bridging, consisting of both hardware and software products, converges a series of interactive video
streams (from IP and ISDN networks, for example) into a single video feed. According to a video
conferencing technology retailer, a basic bridge with the required infrastructure would cost approximately
$40,000 to $50,000. These systems will likely require additional options and components for Department-
wide support and use. Bureau officials stated that bridging equipment can cost up to $250,000.
8
  A firewall is a part of a computer system or network that is designed to block unauthorized access while
permitting authorized communications. It is a device or set of devices that is configured to permit or deny
computer applications based upon a set of rules and other criteria.
9
  The Office of Chief Information Officer was tasked on December 14, 2010, by Secretarial Order No. 3309
to oversee and manage the Department’s five year project to modernize and consolidate the Department’s
information technology systems, including telecommunication equipment.

This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                            8
bridging technology does not compromise the Department’s data network security
if the networks are properly arranged and appropriate policies and procedures are
in place. Appendix 3 lists the type of video conferencing connectivity and
availability of video bridging technology at each Department office and bureau.

Past Experience
We were told that individuals who have had previous experience with older VTC
equipment are reluctant to use the technology now. For example, an NPS
Information Technology (IT) Officer told us that VTC technology was not very
good 6 to 8 years ago. Technical problems related to picture quality, video
connection interruptions, and audio transmission delays from these early
experiences deter people from using the VTC equipment now, especially when
there is no IT support staff available for assistance.

An NPS Telecommunications Specialist also told us that VTC equipment is often
set up in multipurpose rooms, classrooms, storage rooms, or offices to maximize
the use of the existing space. This creates a less-than-ideal experience for VTC
users due to the poor lighting and sound quality in these rooms. This can result in
employees having a bad experience with the equipment and thus are not interested
in using it again. A Bureau of Land Management (BLM) IT Specialist concurred
with this assessment saying that it is best to have a dedicated room for VTC. The
IT Specialist stated that made-for-VTC conference rooms give the equipment a
greater presence and thus encourage its use.




This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                           9
Figure 5. Bureau of Indian Affairs, Pacific Region’s video teleconferencing site in Sacramento,
CA. Because VTC equipment is set up in a multipurpose room with a small screen, having
successful VTC meetings may be challenging. The small VTC screen is dwarfed by the
projection screen next to it. OIG photo.

Availability of VTC Resources Not Known
Maximum use of VTC technology is impeded because some Department
employees do not know the resource is available. For example, a Bureau of Indian
Affairs (BIA) Office of Information Operations Field Support Manager told us the
VTC equipment in the regional office is rarely used. This was in part due to the
equipment being located in a multipurpose conference room and partly because
the existence of the equipment is not widely known. Similarly, a USGS Network
Security Manager told us that, outside of USGS, very few people know that the
VTC site exists in that location. The Network Security Manager said this is
unfortunate because USGS is receptive to having personnel from other bureaus
and offices use the equipment.

We found that officials from the Department and the bureaus generally supported
the idea of cooperatively availing their VTC equipment to other Department or
even non-Department offices. In fact, the officials we spoke to during our review
stated that they would be willing to allow the use of their VTC equipment at no
charge as long as there are no scheduling conflicts. Because the existence and

This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          10
availability of the VTC equipment is not well known or publicized, the
Department cannot take full advantage of this resource.

Employee Motivation
Traveling on business is considered by some employees, in both private and
public sectors, as a job benefit. For example, in the Federal sector, travel comes
with a travel allowance or per diem, can sometimes be to a tourist destination, or
can provide a nice break from an employee’s day-to-day duties in the office.
Travel becomes even more of an incentive for individuals when frequent flyer or
hotel loyalty reward programs are factored in. These factors may limit the appeal
of video conference.

What are the Potential Benefits Associated with
Increased VTC Use?
Potential Travel Savings
The Department has the opportunity to achieve significant reductions in travel
with the increased use of VTC technology. For example, the Department spent
about $206 million on travel in Fiscal Year 2009, consisting of about $62.9
million on airfare and $142.9 million on non-airfare costs10 (see Appendix 5). Of
the $206 million, $42.4 million was spent on travel involving up to 2 nights of
overnight lodging.

Based on the concept that video conferencing is most ideal for short turnaround
trips, such as travel involving zero to 2 nights of lodging, we calculated a
potential annual savings of $4.2 to $8.5 million based on the FY 2009 data. This
calculation assumes a conservative 10-to-20 percent reduction in travel costs
Department-wide. In other words, if the Department increased the use of its VTC
equipment over travel by only 10 percent, it could potentially save $4.2 million
based on the FY 2009 expenditures. If the Department increased its use by 20
percent, it could potentially save $8.5 million (see Appendix 5).

Potential Greenhouse Gas Reduction
The Intergovernmental Panel on Climate Change (IPCC), a United Nations
organization that assesses scientific, technical, and economic information on the
effects of climate change, estimated that air travel currently accounts for about 2
percent of human-generated global carbon dioxide (CO2) emissions. According to
the IPCC, air travel also accounts for about 3 percent of the potential warming

10
   The travel costs were obtained from Northrop Grumman, the Department’s contracted travel management
services agency, using Sabre flight data and cost information as well as Northrop Grumman’s GovTrip travel
authorization, reservation, and reimbursement database. Non-airfare costs include hotel, rental car and
gasoline, privately-owned vehicle, per diem, taxi, parking, and other authorized travel costs. The $62.9
million spent on airfare was for 112,277 reserved flights or an average of $560 per airline ticket.

This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          11
effect of global emissions that can affect the earth’s climate, including carbon
dioxide. The IPCC’s medium-range estimate forecasts that by 2050 the global
aviation industry, including emissions from aircraft, will emit about 3 percent of
global CO2 emissions and about 5 percent of the potential warming effect of all
global human-generated emissions.

Under Executive Order 13514, signed by the President on October 5, 2009,
Federal agencies were directed to lead by example in the area of clean energy.
This includes developing, implementing, and annually updating a plan that
prioritizes actions based on a positive return on investment for the American
taxpayer and to meet energy, water, and waste reduction targets. The
Department’s August 2010 “Strategic Sustainability Performance Plan” (SSPP),
states that increasing the use of VTC is one of several strategies to achieve the
Department’s goal of reducing other indirect greenhouse gas emissions11 by 9
percent by 2020.

While the Department includes VTC use in its SSPP, it has no specific
performance measures for this strategy. In addition, baseline data on the
Department’s greenhouse gas emissions have not yet been established. Reducing
travel between 10 and 20 percent will contribute to the Department’s SSPP goals
by eliminating an estimated 298 to 596 tons of CO2 emissions,12 equivalent to the
emissions from 31,000 to 62,000 gallons of gasoline.13




11
   Indirect greenhouse gas emissions are from sources not owned or directly controlled by a Federal agency,
but related to agency activities, services, and employee travel and commuting.
12
   These figures were calculated using the total flown miles of 11,122,004 for the top 25 city pairs (see
Appendix 6). The 11,122,004 calculates to an equivalency of about 2,978 tons of CO2 gas emissions, also
known as the carbon footprint—the total amount of greenhouse gas produced to directly and indirectly
support human activities, usually expressed in equivalent tons of CO2. The 2,978 tons was derived from the
University of California, Berkeley air travel calculator (Source: http://enviro.berkeley.edu/aircalculator).
Applying a 10 to 20 percent reduction to the total 11,122,004 mileage flown for the top 25 city pairs, the
potential reduction in flown miles range from 1,112,200 to 2,224,401 miles. These mileage numbers translate
to a potential reduction in greenhouse gas emissions of an estimated 298 to 596 tons of CO2, which has an
emissions equivalent to 30,819 to 61,638 gallons of gasoline.
13
   One ton of CO2 is generated from the use of 103.42 gallons of gasoline.


This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          12
Conclusion and Recommendations
Conclusion
The Department can achieve significant annual savings on travel costs—between
$4.2 and $8.5 million for travel involving zero to 2 nights, and between $11.2 and
$22.4 million for travel involving zero to 4 nights—by increasing the use of VTC
at its 315 endpoints throughout the United States.

These savings represent funds that could be used for other operational or program
purposes (see Appendix 7). At a time when Federal agency budgets are
increasingly tight, the use of VTC technology is an economical and immediate
way to stretch the Department’s dollars and, at the same time, support the
President’s green initiatives and greenhouse gas reduction efforts. The support
and backing of senior leadership will underscore the savings and environmental
benefits to be achieved from use of VTC technology.

Recommendations
    1.	 Develop and implement policies and procedures to create awareness of
        VTC’s benefits and advance its optimal use.

         Agency Response: The Department concurred with the recommendation.
         The Department will promulgate policy on procurement of VTC
         equipment and use of VTC capabilities as part of its ongoing IT
         Transformation initiative under the Chief of Information Officer (CIO) by
         December 31, 2012.

         OIG Reply: We consider this recommendation resolved but not
         implemented.

    2.	 Strategically align VTC equipment with the Department’s most frequent
        flight departure and destination cities and flight costs to maximize the use
        of the equipment, and periodically re-evaluate the Department’s frequent
        flight patterns for continuous realignment of the VTC equipment.

         Agency Response: The Department concurred that strategic alignment of
         VTC equipment is necessary, but did not concur that VTC equipment and
         shared VTC services should be aligned to cities with frequent flight
         departures and arrivals without additional analysis. In its written response,
         the Department stated that cities with high frequency of travel may or may
         not correlate with locations where the Department has a large presence,
         adequate network bandwidth availability to support the use of VTC
         equipment, and availability of IT personnel to service and maintain the

This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          13
         equipment. Instead, the Department will perform an analysis to determine
         viable locations for VTC, including an analysis of employee proximity
         and network capabilities. This analysis will be included as part of the IT
         Transformation initiative under the CIO and will be completed by
         December 31, 2012.

         OIG Reply: We consider this recommendation resolved but not
         implemented. We agree that aligning VTC capabilities with cities that are
         used frequently for flights by Department personnel may not be the best
         option in all cases. We believe, however, that any analysis the Department
         performs to determine viable locations for VTC should also include an
         analysis of frequent flight departure and arrival cities and the purpose of
         these travels. Although our review did not include an analysis of the
         purpose of the trips, the results of our review highlighted for the
         Department which cities are the most frequently flown to and from and,
         therefore, provides the Department an opportunity to take a closer look at
         these cities and determine if these locations are viable for VTC.

    3.	 Develop and implement a plan to make VTC equipment compatible and
        interconnected Department-wide, including exploring options to acquire
        video bridging technology for existing VTC equipment and ensuring
        compatibility for future VTC equipment purchases.

         Agency Response: The Department concurred that standardization of
         VTC capabilities is necessary to maximize its use. The Department will
         promulgate policy on procurement of VTC equipment and use of VTC
         capabilities as part of the Telecommunications service area plan within its
         ongoing IT Transformation initiative under the CIO by December 31,
         2012.

         OIG Reply: We consider this recommendation resolved but not
         implemented. In our recommendation, we suggested that the Department
         explore options to acquire video bridging technology as a potential
         approach to reaching maximum interconnectivity. We did not mean to
         suggest that simply interconnecting existing equipment will most
         efficiently address the interoperability issue. Rather, we agree that the
         Department should seek ways to enable interoperability of existing VTC
         systems, to the extent that doing so does not require significant new
         investment. We also agree that emerging technology and capabilities
         should be considered, especially during the Department’s cost-to-benefit
         deliberations, when planning for its long-term VTC strategy.

    4.	 Post available VTC equipment information on the Department Intranet
        Web site to encourage cooperative sharing of VTC equipment, and

This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          14
         develop and implement a VTC scheduling system capable of searching the
         database of VTC sites and showing available times for the equipment.
         Information on the Department Intranet should include the following:

         •	 location of equipment;
         •	 type of equipment;
         •	 bridging technology availability;
         •	 maximum capacity of VTC site location;
         •	 pricing schedule (if applicable);
         •	 bureau or office contact name and telephone number or email address;
            and
         •	 IP address and ISDN connection number of VTC endpoint.

         Agency Response: The Department concurred that a strategy and
         supporting capabilities are necessary to fully develop a shared services
         VTC capability. The Department will develop this strategy and supporting
         capabilities as part of the Telecommunications service area plan within its
         ongoing IT Transformation initiative under the CIO by December 31,
         2012.

         OIG Reply: We consider this recommendation resolved but not

         implemented.


    5.	 Develop quantitative performance measurements related to reduction of
        greenhouse gas emissions as it relates to the increased use of VTC
        technology for the Department’s SSPP, and coordinate these performance
        measures with the Department’s Government Performance Results Act
        Strategic Plan.

         Agency Response: The Department did not concur that there is a direct
         relationship with the use of VTC technology and a reduction in travel and
         greenhouse gas emissions. In its response, the Department stated that
         fluctuations in usage of VTC do not reliably correlate to changes in travel
         patterns and that VTC usage is not a reliable gauge of travel costs
         avoidance and greenhouse gas emissions reduced. The Department
         recommended, however, that “there are other tools and metrics being
         developed” by the Department, but did not elaborate on them.

         OIG Reply: We consider this recommendation resolved based on the
         Department’s response acknowledging that it is developing tools and
         metrics to link its performance measures to an increased usage of current
         and advanced VTC technologies and the corresponding reductions in
         travel costs and greenhouse gas emissions. Accordingly, we request that

This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          15
         the Department provide to the Office of Policy, Management and Budget
         additional information that describes the plans it is taking to link
         performance measures to increased VTC usage and reduced travel and
         greenhouse gas emissions; target date; and title of the official responsible
         for implementation of these tools and metrics.




This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          16
Appendix 1: Scope and Methodology
We performed our evaluation in accordance with the “Quality Standards for
Inspections,” issued by the Council of the Inspectors General on Integrity and
Efficiency. The evaluation focused on the U.S. Department of the Interior’s
(Department) use of video teleconferencing (VTC) technology. To accomplish the
evaluation, we obtained Fiscal Year 2009 travel data from Northrop Grumman,
the Department’s contracted travel management services agency, using Sabre
flight data and cost information, as well as Northrop Grumman’s GovTrip travel
authorization, reservation, and reimbursement database. We also obtained
Department bureau and office listings of all VTC equipment, including the
location, type, availability, point of contact, purchase and operation dates,
purchase price, maintenance cost, fee schedule, and IP address (if any) of the
equipment. The VTC equipment listings were as of April 2010. We did not verify
the accuracy, completeness, and consistency of the VTC equipment listings, as
reported by the Department bureaus and offices. For some of the equipment listed
in Appendix 8, we added the site/equipment location for report presentation
purposes. We believe that the work performed provides a reasonable basis for our
conclusions and recommendations.

We conducted our fieldwork from April 2010 to August 2010. We performed the
following work:

    •	 Reviewed prior Office of Inspector General and U.S. Government

       Accountability Office reports;

    •	 Reviewed the Department’s “Strategic Sustainability Performance Plan,”
       dated August 31, 2010, and “[Government Performance Results Act]
       Strategic Plan, FY 2007-2012;”
    •	 Reviewed the Department’s Annual Performance and Accountability
       Reports for Fiscal Years 2007, 2008, and 2009;
    •	 Reviewed various bureau strategic plans and performance reports;
    •	 Reviewed excerpts of the Intergovernmental Panel on Climate Change’s
       1999 and 2007 reports, “Aviation and the Global Atmosphere” and
       “Climate Change 2007: Mitigation of Climate Change (Fourth
       Assessment Report);”
    •	 Reviewed VTC and video bridging technology price quotes;
    •	 Visited and photographed 21 VTC locations;
    •	 Segregated and analyzed GovTrip and Sabre travel data by the number of
       travel days, focusing on short turnaround trips (groupings of 0 to 2 nights,


This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          17
          up to 3 nights, up to 4 nights, and up to 5 or more nights of travel) because
          these trips have the highest potential of being replaced by VTC;
     •	   Calculated the non-airfare costs using a non-airfare to airfare estimated
          cost factor based on the travel cost data from the GovTrip and Sabre
          databases;
     •	   Identified from the 1 to 3 day travel data grouping the Department’s top
          25 frequently flown and most costly flights;
     •	   For illustration purposes, calculated the Department’s aviation emissions
          carbon footprint for 1 to 3 day trips for the top 25 most costly city pair
          flights flown using the University of California, Berkeley air travel
          calculator,14 and the potential reduction of this carbon footprint; and
     •	   Interviewed IT specialists and other Department and bureau personnel
          directly or indirectly involved in the management, operation, or
          purchasing of VTC equipment; a Departmental travel official; Northrop
          Grumman account manager; and VTC and video bridging technology
          vendor.




14
   We did not verify the accuracy of the University of California, Berkeley air travel calculator and therefore
do not in any way endorse it. Its use was purely for demonstration purposes. There are other air travel
calculators available for use if the Department or other users of our report wanted to do so.

This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                             18
Appendix 2: Number of VTC
Endpoints by Bureau/Office and State
           NBC,
           OIG,                             BL
State                 BIA      USBR                  BOEMRE           NPS       USFWS          USGS        Total
            and                             M
           PMB
AL                                                                        1                                     1
AK                        2                    1                 1       56               1          2         63
AZ                        9           2        4                                                     2         17
CA               1        2           2        1                 1         2              1          8         18
CO               2        1           5       11                 6         6              2          3         36
DC               3        7           2        4                 2         3                                   21
FL                                                                         7                         2          9
GA                                                                         2              1                     3
HI                                                                         1                         1          2
ID                                    1        4                                          1                     6
KS                        1                                                                                     1
ME                                                                         1                                    1
MD                                                                         2                                    2
MA                                                                         2              1          2          5
MI                        1                                                                                     1
MN                        2                                                               1          1          4
MS                                             2                                                                2
MO                                                                                                   1          1
MT                        2           2        1                                                                5
NE                                    1                                    1                                    2
NV                                    2        4                           1                                    7
NM                      14                     1                                          1                    16
NY                                                                         1                                    1
NC                                                                         1                                    1
ND                        3           1        1                                                                5
OK                        2                                      2                                              4
OR                        1                   16                                          1                    18
PA                                                                         8                                    8
SD                        5                                                                          1          6
TN                        2                                                                                     2
TX                                    1                          2                                              3
UT                                    1        7                                                                8
VA               1        4                    3                 1         3              2          5         19

This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          19
WA                        1                    2                           2              1          1            7
WV                                                                         3              2                       5
WI                        1                    2                                                                  3
           NBC,
           OIG,                              BL
State                 BIA       USBR                  BOEMRE           NPS       USFWS         USGS            Total
            and                              M
            PMB
WY                                    1        1                                                                  2
Total            7      60           21       65               15      103              15         29           315

OSM has no VTC

Data provided by Department bureau or office as of April 19, 2010.





This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          20
Appendix 3: Department VTC
Networks and Video Bridges
  Department Offices and
                                             IP            ISDN              Video Bridge
            Bureaus
National Business Center15                                    X
Office of Inspector General                   X
Office of Policy, Management
                                                              X
and Budget
Bureau of Indian Affairs                      X                                      X
                                                                 16
Bureau of Land Management                                    X
Bureau of Ocean Energy
Management, Regulation and                    X               X
Enforcement17
Bureau of Reclamation                         X               X                      X
National Park Service                         X               X                      X
Office of Surface Mining18
U.S. Fish and Wildlife Service                X                                      X
U.S. Geological Survey                        X               X                      X

Note: This table shows the type of VTC connectivity each Department office and bureau has
and whether or not the office or bureau has VTC.




15
   The National Business Center’s VTC equipment is generally available for the use of all other Departmental

offices not listed on this table.

16
   We were told that BLM plans to switch from ISDN to an IP network with a video bridge.

17
   Minerals Management Service (MMS) at the time of data collection.

18
   OSM does not have VTC and video bridging technology.


This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          21
Appendix 4: Top 25 City Pairs Ranked
by Total Cost
                        Top 25 City Pairs Ranked by Total Cost

                                             # of                           Non-
              City Pairs                                   Airfare                           Total Cost
                                             Trips                         Airfare19
 Denver, CO - Washington,
                                              1,028      $602,856           $626,971         $1,229,827
 DC
 Anchorage, AK - Fairbanks,
                                                 820     $272,852           $283,767            $556,619
 AK
 Boise, ID - Denver, CO                          360     $185,342           $192,756            $378,098
 Billings, MT - Denver, CO                       428     $169,486           $176,266            $345,752
 Albuquerque, NM -
                                                 250     $161,689           $168,156            $329,845
 Washington, DC
 Denver, CO - Sacramento,
                                                 329     $141,076           $146,720            $287,796
 CA
 Reno, NV - Las Vegas, NV                        452     $136,026           $141,467            $277,493
 Denver, CO - Las Vegas,
                                                 467     $131,385           $136,640            $268,025
 NV
 Denver, CO - Albuquerque,
                                                 382     $120,351           $125,165            $245,516
 NM
 Denver, CO - Salt Lake
                                                 481     $118,897           $123,653            $242,550
 City, UT
 Denver, CO - Bismarck,
                                                  99     $104,908           $109,104            $214,012
 ND
 Phoenix, AZ - Las Vegas,
                                                 322     $100,603           $104,627            $205,230
 NV
 Albuquerque, NM -
 Phoenix, AZ                                     297       $97,745          $101,655            $199,400
 Minneapolis, MN -
                                                 136       $97,668          $101,575            $199,243
 Washington, DC
 New Orleans, LA -
                                                 142       $93,326            $97,059           $190,385
 Washington, DC
 Salt Lake City, UT -
                                                 217       $93,294            $97,026           $190,320
 Albuquerque, NM
 Anchorage, AK - Juneau,
                                                 181       $91,702            $95,370           $187,072
 AK

19
   The total non-airfare costs were computed using a non-airfare to airfare estimated cost factor based on
travel cost and flight data from the GovTrip and Sabre databases.

This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                             22
 Denver, CO - Phoenix, AZ                       273       $88,030            $91,551          $179,581
 Atlanta, GA - Washington,
                                                249       $87,806            $91,318          $179,124
 DC
                                            # of                            Non-
              City Pairs                                  Airfare                          Total Cost
                                            Trips                          Airfare
 Boston, MA - Washington,
                                                244       $87,473            $90,972          $178,445
 DC
 Boise, ID - Portland, OR                       495       $87,198            $90,686          $177,884
 Sacramento, CA -
                                                123       $83,941            $87,298          $171,239
 Washington, DC
 Anchorage, AK - Barrow,
                                                100       $77,475            $80,574          $158,049
 AK
 Sacramento, CA - San
                                                236       $77,312            $80,405          $157,717
 Diego, CA
 Phoenix, AZ – Washington,
                                                 93       $75,931            $78,968          $154,899
 DC
                                                             $3.4*             $3.5*             $6.9**
 Total                                       8,204
                                                            Million           Million            Million

Note: This table shows the top 25 city pairs ranked by total cost. Each city pair includes

airfare and non-airfare costs.

*Rounded to the nearest hundred thousand dollars.

** Total of the two rounded numbers for airfare and non-airfare costs.





This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          23
Appendix 5: Fiscal Year 2009 Travel
Expenditures and Potential Travel
Savings
                     Travel Expenditures (in Millions of Dollars)


               Number of
                                                   Type of Cost
                Nights
                                                        Non-
                                     Airfare                               Total
                                                       Airfare
             2 or fewer                   $15.4            $27.0              $42.4
             3                            $10.0            $22.5              $32.5
             4                            $11.2            $25.7              $36.9
             5 or more                    $26.3            $67.7              $94.0
             Total                        $62.9          $142.9              $205.8


Note: This table shows the travel expenditures by type and length of trip for Fiscal Year
2009 in millions of dollars. Total travel costs for nights involving up to 4 nights of travel is
$111.8 million.

                  Potential Travel Savings (in Millions of Dollars)


 Percentage                  Potential Savings by Length of Trip
  of Travel                        in Number of Nights
 Reduction          2 or fewer       3            4         4 or fewer
     10                    $4.2        $3.3         $3.7            $11.2
     20                    $8.5        $6.5         $7.4            $22.4
     30                   $12.7        $9.8       $11.1             $33.6
     40                   $17.0      $13.0        $14.8             $44.8
     50                   $21.2      $16.3        $18.5             $56.0

Note: This table shows potential savings in travel expenditures for Fiscal Year 2009 in
millions of dollars. The percentages were applied to the total travel costs shown in the
Travel Expenditures table above.




This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          24
Appendix 6: Top 25 City Pairs Mileage
Totals
                             Top 25 City Pairs Mileage Totals


                        City Pairs                             # of Trips         Total Miles
         Denver, CO - Washington, DC                                1,028           3,015,520
         Anchorage, AK - Fairbanks, AK                                820             428,040
         Boise, ID - Denver, CO                                       360             467,280
         Billings, MT - Denver, CO                                    428             389,480
         Albuquerque, NM - Washington, DC                             250             820,908
         Denver, CO - Sacramento, CA                                  329             598,122
         Reno, NV - Las Vegas, NV                                     452             311,880
         Denver, CO - Las Vegas, NV                                   467             586,552
         Denver, CO - Albuquerque, NM                                 382             266,636
         Denver, CO - Salt Lake City, UT                              481             376,142
         Denver, CO - Bismarck, ND                                     99             102,366
         Phoenix, AZ - Las Vegas, NV                                  322             164,220
         Albuquerque, NM - Phoenix, AZ                                297             194,832
         Minneapolis, MN - Washington, DC                             136             250,848
         New Orleans, LA - Washington, DC                             142             272,536
         Salt Lake City, UT - Albuquerque,
                                                                        217              213,962
         NM
         Anchorage, AK - Juneau, AK                                     181             206,702
         Denver, CO - Phoenix, AZ                                       273             328,146
         Atlanta, GA - Washington, DC                                   249             269,754
         Boston, MA - Washington, DC                                    244             197,494
         Boise, ID - Portland, OR                                       495             340,560
         Sacramento, CA - Washington, DC                                123             581,954
         Anchorage, AK - Barrow, AK                                     100             145,000
         Sacramento, CA - San Diego, CA                                 236             226,560
         Phoenix, AZ – Washington, DC                                    93             366,510
                                                                      8,204          11,122,004

Note: This table shows the top 25 most costly city pairs, in ranking of number of trips and
the corresponding number of miles flown.




This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          25
Appendix 7: Classification of Monetary
Amounts
                                                                                FUNDS TO BE
                                  ISSUE                                           PUT TO
                                                                                BETTER USE20

Travel Savings                                                                           $6.3 Million


TOTAL                                                                                    $6.3 Million




20
   Funds to be put to better use are those funds that potentially could be saved annually if the Department
required the usage of VTC over travel when VTC is a viable option. The potential cost savings is based on a
conservative 10 to 20 percent increase in VTC use over travel involving up to two nights of lodging. The
range for potential savings is $4.2 to $8.5 million for an average savings of $6.3 million.


This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          26
Appendix 8 (pages 27 – 55) has been
redacted under 5 U.S.C. § 552 (b)(6) of the
Freedom of Information Act.




This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          27
Appendix 9: Department Response
The Department’s response to the draft report follows on page 57.




This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          56
                   United States Department of the Interior
                                   OFFICE OF THE SECRETARY 

                                      WASHINGTON, D.C. 20240 


                                           SEP   3 0 2011
Memorandum

To: 	          Kimberly Elmore
               Assistant Inspector General fo r Audits, Inspections, and Evaluations

From:          Rhea  Su~ ~~~er~..-~ l ~\'
               Assistant Secretary     ~-.: ' \
                                                ~
               Po licy, Management and Budget

Subject: 	     Comments on Report WR-EV-MOA-0004-20 10, Interior's Video
               Te leco nfe rencing Usage

Thank you for the opportunity to co nu11ent on yom draft report We agree appropriate use of
Video Teleco nfe rencing (VTC) can contribute to savings and to meeting the Department's
carbon reduction goals.

Over the past decade, the Department has made a significant investment in VTC technology.
Most oflhis investment has been, as w ith other forms of technology eq uipment and services,
Lmcoordinated investment by individual bureaus and offices. As a result, much of the currentl y
installed VTC technology is not readily interoperable and therefore canno t easily be used to
connect with VTC equipment across bureau or office lines.

The Department agrees that maximizing the value of its investment in VTC techno logy is
critical, and as a result we have inc lud ed VTC teclmology within the scope of the IT
Transformation initi ative. The Teleconununications team with the IT Transformation working
group is charged with developing a plan to make the best use of the Department's existing
investment in VTC. However, a key element ofthe exploration of how best to transform the
Department's VTC in vestment will be an examination of the benefits of VTC in light of
communications trends and the expected business value of the investment.

Recent market trends, which are supported by the anecdotal evidence of the Depa1tment' s
experience, suggest that VTC does not, in fact, result in the desired reduction in travel that it
miginally promised. It is still relatively challenging to participate in a lengthy meeting via VTC
because the audi o and visual quality does not remotely approximate face-to-face contact. Instead,
most bureaus report that VTC is marginally more valuable than traditional audio conferencing,
but for key meetings, lravel is still the preferred option. Private sector compani es appear to have
had simil ar experiences with VTC. The market trend suggests movement toward both the low
end and high end of VTC. For examp le, most mobile computers and tablets now come equ ipped
with a video camera to support VTC and recent commercial products support VTC from mobi le
devices, which allows for person-to-person VTC. Person-to-person VTC is consequently
becoming more co mmonplace. T his trend is analogous to the sh ift in traditional telephony from




                                                                                                 57
place-to-place calling to person-to-person calling with the advent of mobile telephony. On the
high-end of the spectrum, several traditional VTC providers have begun offering "telepresence"
tools, which do appear to have the intended impact of reducing travel because they more closely
approximate the experience of face-to-face, live contact.

In addition, it is important to consider VTC in the context of the larger push to enable greater
collaboration capability within the Department and across bureau and office lines. Traditional
VTC is only one of the technologies used by the Department to bring together virtual teams for
meetings and workplace sharing. The Department extensively uses audio-only teleconferencing.
In addition, technologies such as Microsoft's "Live Meeting" and Juniper's "Secure Meeting"
allow remote users to share information across geographic boundaries and create a real-time
virtual workplace to enhance collaboration. These applications are widely used across the
Department and have saved untold amounts of travel and related expenses. We believe the
Depmtment's robust workplace collaboration capability is one of the reasons traditional VTC
usage is on the decline and helps explain why so much legacy equipment across the Department
goes unused today.

In short, the value of traditional VTC is diminishing with the proliferation of other technologies
and may not represent the best value for the Department in the years to come. Maximizing the
value of our current investment by seeking ways to enable interoperability ofVTC systems, to
the extent that doing so does not require significant new investment, is very much a good interim
step. However, the Department's long-term VTC strategy must consider emerging technology
and capability and the likelihood of achieving the Department's long term business goals.


Your draft report included 5 recommendations. Our response to each recommendation is below:

Recommendation 1: "Develop and implement policies and procedures to create awareness of
VTC's benefits and advance its optimal use."

Comment: We concur that Departmental policy on procurement and use of VTC equipment is
necessary. This policy must include the use of mobile and "person-to-person" VTC capability.

In December 2010, Secretary Salazar signed Secretarial Order 3309, Information Technology
Management Functions and Establishment ofFunding Authorities. A primary objective of this
Order was to consolidate management of the Department's information technology (IT)
infrastructure under the Chieflnformation Officer (CIO). An expected result of this
consolidation is lower cost of IT goods and a wider adoption of shared services.

An IT Transformation Plan (Plan) was submitted to the Secretary in June 2011. To implement
the Plan, the Department formed temns that included representatives from the Bureaus and
Offices. The "Telecommunication Team" was tasked to develop a strategy for consolidating the
Depattment's IT telecommunications infrastructme. This consolidation includes VTC services.



                                                2




                                                                                               58
Actions Taken or Planned: The Department will promulgate policy on procurement of VTC
equipment and use of VTC capabilities as part of its ongoing IT Transformation initiative.

Target Date: 12/3 1/2012

Responsible Official : Bemard J. Mazer, CIO.

Recommendation 2: "Strategically align VTC equipment with the Department' s most frequent
flight departure and destination cities and flight costs to maximize the use of the equipment, and
periodically re-evaluate the Department's frequent flight patterns for continuous realignment of
the VTC equipment."

Comm ent : We concm that strategic alignment of traditional VTC equipment across
organizational boundaries is necessary. We do not concur that VTC equipment and shared VTC
services should be aligned to cities with frequent flight departures and arrivals without additional
analysis.

There are many reasons for official travel, including inspections and attending externally-hosted
conferences or training seminars. Your analysis of cities with freq uent fl ight departures and
anivals did not include analysis of the purpose of the trips. Many conferences and traini ng
seminars are hosted in Las Vegas. These conferences and training seminars are generally
provided by third parties and VTC may or may not be appropriate or sponsored by the
conference/training provider.

Align ing traditional VTC capabilities with cities that are used frequent ly for flights by
Department personnel may not be the best option. Cities with high frequency of travel may, or
may not, conelate with locations where the Department has a large presence, network
band width is available to support use of the traditional VTC equipment, and IT personnel are
avai lable to service and maintain the equipment.

Actions Taken or Planned: As part of the TT Transfonnation, the Department will perform an
analysis to determine viable locations for traditional VTC capabilities that includes an analysis of
employee proximity and network capabilities.

Tar·gct Date: 12/3112012

Responsible Officia l: Bernard J. Mazer, CTO.

Recommendation 3: "Develop and implement a plan to make VTC equipment compatible and
interconnected Department-wide, incl uding exploring options to acquire video bridging
technology for existing VTC equipment and ensming compatibility for future VTC equipment
purchases."

Comment: We concur that standardization of VTC capabilities is necessary in order to
maximize its use. We do not concm· that simply interconnecti ng existing equipment will most
efficiently address this need due to the wide variety of equipment on-hand, the equipment's
                                                  3




                                                                                                 59
various ages, its connection requirements (IP vs. ISDN), and the feasibility of bridging
technology. We believe the best path forward is to leverage commercial capabi liti es on mobile
devices, as well as to enable video on personal devices (e.g. desktops and laptops) through
modem H.323 IP teclmologies that provide greater flexibility.

Secretarial Order 3309 consolidated management of the Department's IT infrastructure under the
CIO. A result of this consolidation is expected to be standardization of shared services,
including VTC.

Actions Taken or Plan ned: The Department will promulgate policy on procurement of VTC
equipment and use ofVTC capabilities as part of the Telecommunications service area plan
within the ongoing IT Transformation initiative.

Target Date: 12/31/2012

Responsible Official: Bernard J. Mazer, CJO.

Recommendation 4: "Post available VTC equipment infonnation on the Department Intranet
website to encourage cooperative sharing ofVTC equipment, and develop and implement a VTC
scheduling system capable of searching the database of VTC sites and showing available times
for the equipment."

Comment: We concur that a strategy and supporting capabilities are necessary to fully develop
a shared services VTC capability.

Actio ns Taken or P lanned: The strategy and capabilities will be developed as part of the
Telecommunications serv ice area plan within the Department's ongoing IT Transformation
initiative.

TargetDate: 12/31120 12

Respo nsible Ofticial: Bernard J. Mazer, CIO.

Recommend ation 5: "Develop quantitative performance measurements related to reduction of
greenhouse [sic] gas emissions as it relates to the increased use of VTC teclmology for the
Department's SSPP, and coordinate these performance measures with the Department's
Government Performance Results Act Strategic Plan."

Comm ent: We do not concm that there is a direct relationship with the use of VTC teclmology
and a reduction in travel and reduce greenhouse gas emissions.

Fluctuations in usage of traditional VTC do not reliably cmTelate to changes in travel patterns.
For example, tTaditional VTC usage may increase when capability becomes availab le that did not
exist before. However, the increase of VTC usage simply because VTC became ava ilable does
not necessari ly imply that travel would have occwTed otherwise; other forms of collaboration,

                                                4




                                                                                              60
such as audio-only conference calls or WebEx, may have been used. There are other factors at
work as well. Reduced travel may be due to decreasing budgets rather than availability of
traditional VTC. VTC usage is not a reliable gauge of travel costs avoided and greenhouse gas
emissions reduced.

Fwihermore, we are w1able to measure the use of commercial products that support VTC from
mobile devices. It is not practical to measure "person-to-person" VTC that may occur between
remote employees with video-enabled laptops. As VTC becomes a more personal experience,
person-to-person YTC may replace phone calls. Greater personal usage of this emerging
capability does not translate to travel avoided.

We recommend that there are other tools and metrics being developed by the Department.

If you have fUiiher questions, please feel free to contact Bernard J. Mazer, CIO. Mr. Mazer can
be reached at (202) 268-6194 or bernard_mazer@ios.doi.gov.

cc:    Bernard J. Mazer, CIO




                                                5




                                                                                             61
Appendix 10: Status of
Recommendations

 Recommendations                       Status                              Action Required
 1–5                                   Resolved; not                       No further response to
                                       implemented.                        OIG is required. The
                                                                           recommendations will be
                                                                           referred to the Assistant
                                                                           Secretary for PMB for
                                                                           tracking of
                                                                           implementation. For
                                                                           Recommendation 5, we
                                                                           request that the
                                                                           Department provide PMB
                                                                           with additional
                                                                           information describing its
                                                                           plans for linking
                                                                           performance measures to
                                                                           VTC use.




This document is the property of the Department of the Interior, Office of Inspector General (OIG), and may
contain information that is protected from disclosure by law. Distribution and reproduction of this document
is not authorized without the express written permission of the OIG.
                                                                                                          62
                                   


            Report Fraud, Waste,                                     
            and Mismanagement
                                      
                 Fraud, waste, and mismanagement in
                 government concern    everyone: Office
               of Inspector General staff, Departmental
                employees, and the general public. We
                   actively solicit allegations of any
                          and wasteful practices, fraud,
               inefficient
                    and mismanagement related to
              
                Departmental or Insular Area programs
                                                        
                    and operations.  You can report
                   allegations to us  in several ways.
                                       
                                   
                                   
     By Mail:	         U.S. Department of the Interior  
                       Office of Inspector General  
                       Mail Stop 4428 MIB  
                       1849 C Street, NW  
                       Washington, D.C. 20240  
      
               
     By Phone:	        24-Hour Toll Free                               
                                                           800-424-5081
                       Washington Metro Area               202-208-5300
                                                                       
      
               
     By Fax:	          703-487-5402
      
     By Internet:	     www.doioig.gov
  
                                                                           
